Department of Homeland Security
   Office of Inspector General

Use of American Recovery and Reinvestment Act 

Funds by U.S. Customs and Border Protection for 

       Construction of Land Ports of Entry






      American Recovery and Reinvestment Act of 2009






OIG-11-97                                                August 2011
                                                             Offce of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                                              Homeland
                                                              Securi ty

                                       AUG 26 2011

                                          Preface

The Department of 
 Homeland Security (DHS) Offce ofInspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities for programs, grants and
projects administered by the department under the American Recovery and Reinvestment
Act of 2009 (Recovery Act).

This report presents information on Recovery Act funds used by U.S. Customs and
Border Protection to modernize land ports of entry. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a
review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report wil result in more effective, effcient, and economical operations. We
express our appreciation to all of those who contrbuted to the preparation of this report.


                                        (Â/U;lZ;¿
                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations


Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Results of Review ................................................................................................................7 


     Port Size .........................................................................................................................7 

     Recommendation .........................................................................................................14 

     Management Comments and OIG Analysis ................................................................15 


     Port Closures ................................................................................................................16 

     Recommendation .........................................................................................................20 

     Management Comments and OIG Analysis ................................................................20 


Appendixes
  Appendix A:          Purpose, Scope, and Methodology...........................................................23 

  Appendix B:          Management Comments to the Draft Report ...........................................24 

  Appendix C:          Average Costs of Small, Micro A, and Micro B Ports.............................26 

  Appendix D:          Estimated Cost of Port Projects as of April 11, 2011 ..............................27 

  Appendix E:          Major Contributors to this Report ............................................................28 

  Appendix F:          Report Distribution ...................................................................................29 


Abbreviations
     CBP              U.S. Customs and Border Protection 

     DHS              Department of Homeland Security 

     GAO              Government Accountability Office 

     GSA              General Services Administration 

     LPOE             land port of entry    

     OFO              Office of Field Operations 

     OIG              Office of Inspector General 

     PMRS             Program Management and Reporting System                                     

     SRA              Strategic Resource Assessment
 

OIG


Department of Homeland Security
Office of Inspector General

Executive Summary
                   As part of our oversight responsibility under the American Recovery
                   and Reinvestment Act of 2009, we initiated an audit to determine the
                   efficacy of Customs and Border Protection’s administration of the
                   act’s funds for land ports of entry. We subsequently received a
                   letter from Senator Byron L. Dorgan expressing concerns about the
                   cost of the ports being built on the northern border. As a result, we
                   revised our objective to determine whether the agency’s approach to
                   altering and constructing land ports of entry on the northern border
                   with these funds was reasonable.

                   The American Recovery and Reinvestment Act included $420
                   million for management and construction of Customs and Border
                   Protection-owned land ports of entry. The agency owns 43 land
                   ports of entry, 39 on the northern border and 4 on the southern
                   border. Agency-owned ports are on average more than 40 years
                   old; have significant deficiencies; and are usually small, rural, and
                   have low traffic volumes. The agency is using most of the funds to
                   build 30 new northern border ports and 3 new southern border
                   ports.

                   Customs and Border Protection developed reasonable plans for
                   spending funds under the constraints of the act, including the use
                   of three standard port designs ranging in size from approximately
                   4,300 to 10,000 square feet (including unfinished storage space).
                   However, the agency included some features in the designs that are
                   not supported by operational requirements and did not fully justify
                   the basis for the size of the port design selected for certain
                   locations. Further, the agency is building three new ports and
                   repairing one port at locations that its field offices recommended
                   be closed. Our report contains two recommendations that the
                   agency reevaluate its design selections for five ports and
                   modernization approach for five ports that it ranked high for
                   potential closure and determine whether they should be repaired,
                   rebuilt, or closed. The agency did not agree with the
                   recommendations.



                Use of American Recovery and Reinvestment Act Funds by
       U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                        Page 1

Background
                          A land port of entry (port) is a facility that provides controlled
                          entry to and exit from the United States for people and materials.
                          It consists of land, buildings, roadways, and parking lots. There
                          are 163 ports: 122 on the northern U.S.-Canadian border and 41
                          on the southern U.S.-Mexican border.1 The National Park Service
                          owns 1 port, the General Services Administration (GSA) owns or
                          leases 119, and U.S. Customs and Border Protection (CBP) owns
                          43. Of the 43 CBP-owned ports, 39 are on the northern border and
                          4 are on the southern border.

                          Most GSA-owned or leased ports are large, urban, and have high
                          traffic volumes. Most CBP-owned ports are small, rural, and have
                          low traffic volumes. For example, CBP-owned ports on the
                          northern border processed only 0.92% of all land border traffic
                          entering the United States in 2009. Figure 1 shows the CBP
                          northern border port in Morgan, MT.

                          Figure 1. Port in Morgan, MT 





                                                                            (OIG photograph)

                          CBP’s primary mission at the ports is to prevent terrorists and
                          terrorist weapons from entering the country. CBP also enforces
                          trade laws, immigration policy, and agricultural laws and
                          regulations at the ports. Port officers process people, inspect
                          vehicles and cargo, and detain those who break the law.


1
 This represents the number of ports as of February 17, 2009, the date that the American Recovery and
Reinvestment Act was enacted. As of April 2011, there are 167 ports: 122 on the northern U.S.- Canadian
border and 45 on the southern U.S.-Mexican border.

                     Use of American Recovery and Reinvestment Act Funds by
            U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                                Page 2

            Recovery Act

            In November 2008, in anticipation of the economic stimulus bill,
            the Department of Homeland Security provided to Congress two 5­
            year options for port modernization that identified ports in order of
            priority. The first option suggested $1.36 billion in the first year
            and $600 million in each of the next 4 years. The second option
            suggested $600 million per year for 5 years. In each option, only
            GSA-owned ports were targeted for funding in the first year.

            The American Recovery and Reinvestment Act of 2009 (Recovery
            Act) was enacted on February 17, 2009. The Recovery Act
            appropriated $300 million to GSA’s Federal Buildings Fund “for
            border stations and land ports of entry” and $420 million for
            “planning, management, design, alteration, and construction of
            U.S. Customs and Border Protection owned land ports of entry.”
            Among the Recovery Act’s stated purposes are the creation and
            preservation of jobs, promotion of economic development, and
            investment in infrastructure. Regarding infrastructure
            development, the Recovery Act said that federal agencies shall
            give preference to activities that “can be started and completed
            expeditiously, including a goal of using at least 50 percent of the
            funds for activities that can be initiated no later than 120 days after
            the date of the enactment of this Act.”

            The Recovery Act also required that CBP obligate the funds by
            September 30, 2010, and that the Secretary of the Department of
            Homeland Security submit to the Committees on Appropriations for
            the Senate and House of Representations a plan for the expenditure
            of the funds. Guidance from the Office of Management and Budget
            (M-09-15, Updated Implementing Guidance for the American
            Recovery and Reinvestment Act of 2009) required the submission of
            program-specific plans by May 15, 2009.

            Spending Plans

            The May 15, 2009, program-specific spending plan said that CBP
            would use $374 million to construct new facilities at 23 existing
            CBP-owned ports and $25 million to repair and alter a minimum of
            10 additional ports. The plan also included $21 million for a
            program management and reporting system (PMRS). On April 12,
            2010, CBP submitted a revised plan that increased the number of
            reconstruction projects to 33 at a cost of $388,849,880.



         Use of American Recovery and Reinvestment Act Funds by
U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                 Page 3

            Funding for the 10 additional projects became available when CBP
            learned that the costs of the initial 23 port projects were lower than
            estimated. Table 1 lists the 33 reconstruction projects (30 on the
            northern border and 3 on the southern border) and costs for project
            management, repairs and alterations, and the PMRS included in the
            revised plan. Our review of the reconstruction projects was limited
            to the 30 projects on the northern border.

                  Table 1. Project Modernization Costs from April 2010
                           Revised Spend Plan
                  No.                Location                   Cost
                       Northern Border
                  1          Hamlin, ME                        $14,111,025
                  2          Scobey, MT                           6,595,988
                  3          Wild Horse, MT                       7,973,883
                  4          Del Bonita, MT                       9,890,514
                         Projects included in the initial spending plan


                  5          Morgan, MT                           7,544,151
                  6          Whitetail, MT                        8,485,000
                  7          Walhalla, ND                         6,598,167
                  8          Neche, ND                            7,030,269
                  9          Noonan, ND                           7,957,940
                  10         Antler, ND                           6,643,442
                  11         Hansboro, ND                         6,929,000
                  12         Carbury, ND                          7,004,000
                  13         Westhope, ND                         6,936,000
                  14         Sherwood, ND                         6,770,000
                  15         Pittsburg, NH                        7,419,000
                  16         Cannon Corners, NY                   7,802,106
                  17         Churubusco, NY                       6,881,786
                  18         Morses Line, VT                      7,187,760
                  19         Pinnacle Road, VT                    7,236,000
                  20         Boundary, WA                       13,974,012
                  21         Frontier, WA                       10,460,755
                  22         Easton, ME                           8,378,461
                  23         Bridgewater, ME                    10,087,024
                  24         Forest City, ME                      8,000,000
                         Added projects




                  25         Pine Creek MN                        8,254,590
                  26         Whitlash, MT                         7,674,628
                  27         Maida, ND                            6,974,301
                  28         Sarles, ND                           7,279,618
                  29         Hannah, ND                           7,855,252
                  30         Nighthawk, WA                        7,889,520

                         Southern Border
                  31          Antelope Wells, NM                                       9,654,947
                  32          Los Ebanos, TX                                           9,974,632
                  33          Amistad Dam, TX                                          8,933,464
                           Subtotal                                                  272,387,235


         Use of American Recovery and Reinvestment Act Funds by
U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                                                          Page 4


                         Project Management*                                 116,462,645
                          Subtotal                                           388,849,880
                         Repairs and Alterations                              10,150,120
                         PMRS                                                 21,000,000
                            Total                                            420,000,000
                  *
                   Includes costs for contingencies, program support, land acquisition,
                  environmental remediation, moving services, and voice and data services.

            Port Conditions

            CBP-owned ports are on average more than 40 years old and were
            built with configurations and layouts to support pre-9/11
            operations. The average size of the 30 northern border ports that
            are being replaced is approximately 2,700 square feet (gross square
            feet of main building, secondary inspection area, and garage areas).
            To assess the capacity, functionality, and condition of ports, CBP
            conducted Strategic Resource Assessments (SRAs) of all ports in
            2004–2006. The SRAs compare facility modernization needs in
            four categories: mission and operations, security and life safety,
            space and site deficiency, and personnel and workload growth.

            The SRAs identified deficiencies such as inadequate traffic control
            infrastructure, perimeter fencing, lighting, fire and life safety
            systems, and emergency power; no inspection booths or holding
            cells; limited or no inspection technologies; and inadequate
            separation between staff, the public, and violators. CBP’s Land
            Ports of Entry Modernization: Promoting Security, Travel and
            Trade, dated October 2008, stated that the SRAs identified a need
            for $6 billion to modernize its ports. For the 30 CBP-owned
            northern border ports that are being reconstructed with Recovery
            Act funds, the SRAs recommended that 18 be rebuilt, 8 be repaired
            or altered, 2 undergo a feasibility study to help decide whether they
            should be rebuilt or renovated, and 2 be closed.

            Port Activities

            Northern border ports have significant variances in their levels of
            activity. For example, the 30 CBP-owned ports being rebuilt with
            Recovery Act funds processed only about 2% of all land border
            traffic entering the northern border of the United States in 2009.
            Table 2 compares selected activities at these 30 CBP-owned ports
            and all 122 northern border ports.




         Use of American Recovery and Reinvestment Act Funds by
U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                   Page 5


     Table 2. Selected Activities at the 30 CBP-Owned Ports Being Upgraded
     With Recovery Act Funds (RA Ports) Compared With All 122 Northern
     Ports (North Ports)
                                                                 RA   North
                               Activity                         Ports Ports
     Average Vehicle Traffic Per Day (1/1/08–6/30/10)              61     735
     Identifications of Individuals on the Terrorist Watch List
     (1/1/08–6/30/10)                                               4   1,263
     Arrests (1/1/08–6/30/10)                                      95  11,042
     Pounds of Marijuana, Cocaine, Ecstasy, Heroin, and
     Methamphetamines Seized (1/1/09–6/30/10)                     0.3  11,200

    Prior Reviews

    The following prior reviews are relevant to CBP’s use of Recovery Act
    funds for port facility improvements:

            Our Review of the U.S. Customs and Border Protection
            Expenditure Plans for the American Recovery and Reinvestment
            Act of 2009 (Report No. OIG-10-05), issued October 22, 2009.
            The report concluded that “CBP’s expenditure plan for the
            construction of CBP-owned land ports of entry is generally
            practical, thorough, and comprehensive.” The review also
            determined that CBP followed its own criteria for prioritizing
            projects but did not evaluate the original process CBP used to
            establish its criteria or any underlying assumptions. The report did
            not present any recommendations on the construction of the ports.

            The department’s 30-Day Review of Spending by the U.S. Customs
            and Border Protection under the American Recovery and
            Reinvestment Act for Construction of Land Ports of Entry, issued
            October 23, 2009. The review determined that “CBP’s overall
            plan to use Recovery Act funds for construction of its own ports
            was based on a set of practical, thoughtful, and thorough criteria
            that allows CBP to meet the goals of the Recovery Act while
            simultaneously addressing CBP’s pressing recapitalization needs.”

            The report presented four recommendations:

            1.		 CBP should be allowed to proceed with its current plans for
                 construction for port facilities.

            2.		 CBP should continue to invest in additional port of entry
                 facilities as it experiences lower-than-expected costs owing to
                 current market forces for labor and materials.

         Use of American Recovery and Reinvestment Act Funds by
U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                 Page 6

                           3.		 The department should develop guidelines and practices
                                regarding value engineering.2

                           4.		 The department should conduct periodic studies to determine
                                whether any ports should be closed.

                           Since the report’s issuance, CBP has proceeded with its plans for
                           port construction and renovation. Although the department has not
                           studied ports to determine whether any should be closed, CBP’s
                           Planning, Program Analysis, and Evaluation Office completed a
                           ranking of the top 50 (out of 163) ports for potential closure. The
                           catalyst for the ranking was a recommendation from the CBP’s
                           Seattle Field Office that three ports be closed instead of
                           modernized with Recovery Act funds.

Results of Review
         CBP developed reasonable plans for spending Recovery Act funds under the
         constraints of the Recovery Act. The plans provided for completing actions
         necessary to meet the environmental, historic, and cultural preservation
         requirements; land acquisitions; project designs; internal fund obligations and
         contract awards; and construction at multiple locations throughout the United
         States. However, features in standard port designs contributed to CBP building
         ports that are larger than necessary to meet operational requirements, and CBP did
         not fully support the basis for its decision regarding the port size required at
         different locations. CBP is also building three new ports and repairing one port at
         locations that its field offices recommended be closed instead of improved with
         Recovery Act funds.

         Port Size
                  CBP is using standard designs for building the new Recovery Act-funded
                  ports. Designs are for three different-sized ports: Small, Micro A, and
                  Micro B. However, operational requirements do not support certain
                  components of the designs, principally outbound inspection facilities and
                  fitness rooms. We estimated that including the outbound inspection
                  features in the seven small ports being built on the northern border could
                  increase costs by $6.4 million.



2
 GSA’s Value Engineering Program Guide for Design and Construction defines value engineering as “an
organized effort directed at analyzing the functions of systems, equipment, facilities, services and supplies
for the purpose of achieving the essential functions at the lowest life cycle cost consistent with the required
performance, reliability, quality and safety.”

                      Use of American Recovery and Reinvestment Act Funds by
             U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                                    Page 7

                         Port Designs

                         The prototype for the initial small port is based on the U.S. Land
                         Port of Entry Design Guide Supplement developed by GSA Public
                         Buildings Service Design Programs Center and Border Station
                         Center in 2006. The small port prototype includes the following
                         basic components:

                              Inspection booths for primary screening of travelers and
                              vehicles
                              Lane systems to protect officers and booths and to allow
                              officers to scan incoming traffic with modern inspection
                              technologies
                              Canopy systems to provide shelter and protect electrical wiring
                              Interior processing centers for screening individuals
                              Secure holding areas for detainees
                              Buildings for detailed vehicle inspections, and buildings to
                              provide weather protection and security for nonintrusive
                              inspections

                         This design was first used when GSA built seven new small ports
                         in 2003 and 2004. CBP and GSA revised the small port prototype
                         after a series of design process meetings in early 2009. These
                         meetings also resulted in two reduced-sized small port designs: the
                         Micro Port and Micro-Micro Port, which CBP renamed Micro A
                         and Micro B port designs, respectively, in 2010. Table 3 compares
                         the square footage of each design.3
                          Table 3. Square Footage for Standard Designs of New Ports
                                                               Square Feet per Design
                                    Description           Small       Micro A       Micro B
                          First Floor                       3,750         3,540         2,650
                          Canopy*                           2,175           865           865
                          Garage                              780           780           780
                          Second Floor**                    3,450         3,540             0
                             Total Footprint               10,155         8,725         4,295
                          Utility Yard                      1,215           780           645

                          *
                            The areas covered by the canopies are the components of the ports that cover
                          inbound and outbound vehicle lanes in small ports and inbound lanes in Micro
                          A and B ports. These components are like drive-through garages that are
                          heated and have roll-down doors at the entrance and exit.
                          **The Small and Micro A ports’ second floor includes 1,750 and 2,090 square
                          feet, respectively, of unusable storage space.

3
 The information on port design is from CBP Field Operations Facilities Program Office Issue Paper –
Land Port of Entry Prototype Size Descriptions (Small, Micro-A and Micro-B).

                     Use of American Recovery and Reinvestment Act Funds by
            U.S. Customs and Border Protection for Construction of Land Ports of Entry

                                                Page 8
            Small Ports

            Small port features include a public area; officer work area;
            enforcement area including two cells with toilets and sinks, alien
            waiting area, interview room, search area, and secure storage; local
            area network and mechanical rooms; staff services area including
            restroom, fitness room with shower, and break room with pantry;
            garage; optional relief officer quarters; and inbound and outbound
            inspection areas. Figure 2 shows a small port under construction at
            Wild Horse, MT.

            Figure 2. Small Port in Wild Horse, MT 





                                                            (CBP Photograph)

            Micro A ports

            Micro A ports have the same overall footprint as the small ports,
            with similar interior features but different layouts and with one
            major difference: Micro A ports do not have an outbound
            inspection booth and canopy area. Figure 3 shows a Micro A port
            under construction in Scobey, MT.

            Figure 3. Micro A Port in Scobey, MT





                                                          (CBP Photograph)

         Use of American Recovery and Reinvestment Act Funds by
U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                 Page 9

            Micro B ports

            Micro B ports are smaller, single-story structures with downsized
            rooms. The main differences in components from the Micro A
            port is that the enforcement area consists of only an interview
            room and two holding rooms, with one doubling as a search area.
            Also, it does not have officer relief quarters. According to CBP,
            this port type occupies minimal space, reducing the effect on the
            surrounding community while still meeting the mission
            requirements of CBP. Figure 4 shows an artist’s rendering of a
            Micro B port

            Figure 4. Artist’s Rendering of a Micro B Port 





            According to CBP, it is building 7 Small, 16 Micro A, and 7 Micro
            B ports on the northern border.

            Outbound Inspections

            The outbound inspection area is unique to the Small port design.
            The inclusion of the outbound inspection booth and canopy area
            requires that inbound and outbound traffic be separated and that
            traffic be routed to inspection areas at opposite sides of the port.
            To separate inbound and outbound traffic, the Small port design
            requires additional lanes and road construction. Other outbound
            inspection features consist of a separate 970-square-foot canopy
            and a 120-square-foot inspection booth. Documentation provided
            by CBP regarding outbound inspections, including the CBP Draft
            Operational Requirements Document for Land Ports of Entry, vol.
            1, did not specify a requirement for establishing an outbound
            inspection facility/booth at northern ports.

            CBP also gave us the U.S. Customs and Border Protection, Office
            of Field Operations Cargo and Conveyance Security Outbound

         Use of American Recovery and Reinvestment Act Funds by
U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                 Page 10

            Enforcement Division, Strategic Plan FY 2010–2014. In March
            2009, CBP’s Office of Field Operations reestablished the
            Outbound Enforcement Division after a dramatic increase in
            narcotics-related violence in Mexico. According to the plan, the
            Outbound Enforcement Division was reestablished not only to
            increase outbound enforcement activities along the southwest
            border, but also to address dual-use commodity, currency, and
            counter-proliferation violations in all environments, across all
            modes of travel.

            CBP did not provide information to indicate that the Outbound
            Enforcement Division had identified a need for outbound operation
            facilities at the northern border. The division’s focus is on the
            southern border, based on its immediate goal to “obstruct the
            illegal flow of firearms and currency being smuggled from the
            United States to the Mexican Drug Trafficking Organizations.…”
            Furthermore, its goals for fiscal years 2010 through 2014 provide
            for increasing staff and enforcement activity along the southwest
            border by 5% each year. The goals do not refer to the northern
            border.

            Finally, the fact that CBP is building 22 of the 30 new ports
            without outbound inspection booths and canopies (i.e., Micro A
            and Micro B ports) indicates that outbound features are not a
            required port component on the northern border.

            Estimated costs of outbound features

            CBP estimated that it cost $528,819 for the outbound inspection
            feature at Wild Horse, MT: $485,319 for the outbound canopy and
            booth and $43,500 for the outbound road construction. We believe
            that CBP’s estimate is low. We reviewed the independent
            government estimate for the Micro A port at Wild Horse and
            contrasted it with the cost estimate for the Micro A port at Maida,
            ND. On the basis of this analysis, we estimated increased costs of
            $912,621 at Wild Horse for the outbound canopy, booth, and road
            construction. For the seven Small ports being built, therefore, the
            increased costs for outbound features could be $6.4 million. Given
            that on average, a Small port costs approximately $3.70 million
            more than a Micro A port, the increased costs for the outbound
            features may be even higher. (See Appendixes C and D for
            calculations of average port costs.)




         Use of American Recovery and Reinvestment Act Funds by
U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                 Page 11


            Fitness Rooms

            All three port designs contain fitness rooms with shower facilities.
            The size of the fitness rooms ranges from approximately 150 to
            224 square feet. There is no operational requirement for fitness
            rooms, nor is there a CBP fitness requirement for incumbent CBP
            officers. However, CBP officials told us that a fitness requirement
            is forthcoming.

            Enforcement Areas

            All three port designs provide areas for enforcement. The designs
            for the 23 Small and Micro A ports include enforcement space for
            two holding rooms with toilets and sinks, an alien waiting area, an
            interview room, a search room, and storage areas. According to
            the CBP Security Policy and Procedures Handbook, HB400-02B,
            dated August 13, 2009, these features are required for new and
            renovated buildings. However, CBP is installing seven Micro B
            ports that have smaller enforcement areas than required by its
            handbook. The enforcement area for the Micro B port contains an
            interview room and two holding rooms, with one holding room
            also serving as a search area. CBP officials said that they will seek
            a waiver of the security requirements for the Micro B port design.

            The 30 CBP-owned ports being rebuilt average one to two arrests
            per year. The low level of arrests at northern border ports appears
            to justify the smaller enforcement area in the Micro B port design,
            as well as in the designs for the Small and Micro A ports.

            In summary, we believe that Small and Micro A ports have
            features that are desirable, but may not be required or necessary for
            port operations. The department’s 30-Day Review came to a
            similar conclusion. The 30-Day Review noted that the Small and
            Micro A port designs include first and second floors; three
            restrooms (one for the public and two for officers, including a
            second floor restroom); two storage facilities; a separate physical-
            fitness room for the officers; and some square footage to be unused
            growth space. The 30-Day Report also said that while these
            features do not appear “lavish or clearly excessive,” it is possible
            “that more refined analysis could show some of these elements to
            be above the absolute minimum requirements for CBP to
            accomplish its mission.”




         Use of American Recovery and Reinvestment Act Funds by
U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                 Page 12


            Port Design Selection

            There was inadequate support for CBP’s determination of whether
            to install Small, Micro A, or Micro B port designs at the 30
            northern border locations. According to the U.S. Customs and
            Border Protection Design Standard for U.S. Land Ports of Entry,
            March 2010, the impact of traffic type (commercial and privately
            owned vehicles) and volume is critical because “it influences the
            size and programmatic requirements of a Port.”

            CBP provided data in September 2010 that included the fiscal year
            2005 annual inbound traffic flows per port, which CBP officials
            said was the primary factor in selecting the port designs for each
            site. The traffic patterns indicate that, generally, Micro B ports
            were installed at locations with fewer than 25 vehicles per day,
            Micro A ports at locations with between 25 and 50 vehicles per
            day, and Small ports at locations with 100 or more vehicles per
            day. Table 4 shows the port locations, average daily inbound
            traffic in 2005 and 2009, and type of port design.

                       Table 4. Port Location, Daily Traffic, and Size
                             of New Port as of September 2010
                                           Average Daily
                                          Inbound Traffic        Port
                          Location        2005       2009       Design
                      Whitlash, MT            3         2        Micro B
                      Whitetail, MT           4         3        Micro A
                      Forest City, ME         8         7        Micro B
                      Easton, ME             n/a        8        Micro B
                      Hannah, ND             13         5        Micro B
                      Nighthawk, WA          15         28       Micro B
                      Morgan, MT             16         19       Micro A
                      Scobey, MT             17         13       Micro A
                      Pinecreek, MN          18         15       Micro B
                      Sarles, ND             23         15       Micro B
                      Carbury, ND            27         33       Micro A
                      Pinnacle Rd., VT       31         22       Micro A
                      Pittsburg, NH          31         16       Micro A
                      Hansboro, ND           32         26       Micro A
                      Cannon Cnrs., NY       35         31       Micro A
                      Antler, ND             36         31       Micro A
                      Churubusco, NY         37         34       Micro A
                      Westhope, ND           37         48       Micro A
                      Del Bonita, MT         38         50       Micro A
                      Wild Horse, MT         39         48        Small
                      Sherwood, ND           43         69       Micro A
                      Morses Line, VT        44         40       Micro A
                      Maida, ND              47         32       Micro A


         Use of American Recovery and Reinvestment Act Funds by
U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                 Page 13


                         Noonan, ND            106        104       Small
                         Frontier, WA          157        155       Small
                         Walhalla, ND          160        133       Small
                         Neche, ND             165        158       Small
                         Boundary, WA          186        179       Small
                         Bridgewater, ME       209        165      Micro A
                         Hamlin, ME            451        231       Small

                       n/a = not available

              However, CBP did not provide information to justify why those
              different traffic thresholds merited the different-sized ports or why
              the Micro B port could not be used for most of the locations. At
              our exit conference, CBP officials said that staffing and
              commercial activities also influenced the selection of port designs.
              The variances in staffing levels among these ports, with minor
              exceptions, are not significant. Regarding commercial activities,
              CBP advised that only four northern border ports have commercial
              design features (Bridgewater, ME; Easton, ME; Pittsburg, NH; and
              Frontier, WA).

              Conclusion

              CBP’s main strategy for modernizing ports on the northern border
              calls for rebuilding 30 of them. The designs for the 30 ports
              currently consist of 7 Small, 16 Micro A, and 7 Micro B ports.
              The Small and Micro A designs include features that are not
              supported by operational requirements. In addition, it appears that
              the Micro B design has the features necessary to meet most
              operational requirements on the northern border at most if not all
              locations. As of March 3, 2011, CBP’s planned construction start
              dates for two Small ports—Boundary, WA and Hamlin, ME—are
              February and March 2011, respectively. Planned construction start
              dates for three Micro A ports—Del Bonita, MT; Cannon Corners,
              NY; and Bridgewater, ME—are February, March, and May 2011,
              respectively. Consequently, CBP should reevaluate its design
              decisions on these ports and determine whether the designs can be
              reduced in size.

Recommendation
      Recommendation #1: Reevaluate the designs selected for the ports at
      Boundary, WA; Bridgewater, ME; Cannon Corners, NY; Del Bonita, MT;
      and Hamlin, ME, and determine whether the designs for these ports should
      be downsized.


           Use of American Recovery and Reinvestment Act Funds by
  U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                    Page 14

Management Comments and OIG Analysis
      CBP nonconcurred: CBP did not reevaluate the designs for the five ports.
      CBP said that the designs reflect its “operational needs while minimizing
      building size,” that the 30-Day Report termed the design “appropriate to
      the staffing and other needs of these LPOE [land port of entry],” and that
      it “used the lessons learned to develop a smaller design for the lowest-
      volume ports.” CBP also stated, “these specific construction projects were
      already under way when the OIG team visited the sites.”

      OIG analysis: Our recommendation covered five ports using one Small
      and four Micro A designs. For Small ports, CBP does not have an
      operational requirement for the design to have outbound inspection
      facilities, and it has no operational requirement for any ports to have
      fitness rooms. The 30-Day Report was issued a year and a half ago and
      did not include the Micro B design in its analysis. The report did point
      out, however, that the Small and Micro A port designs, “while
      reasonable,” have features such as three restrooms, two firearm storage
      facilities, and some unused space for future growth, that could be above
      absolute minimum requirements.” Applying lessons learned to develop
      two port designs that are progressively smaller (Micro A and Micro B)
      than the Small port prototype design is commendable. In that regard,
      information provided by CBP shows that it has used the smaller Micro B
      port design for ports with staffing and traffic patterns similar to the five
      ports covered by this recommendation, which used larger designs.

      CBP’s comment that construction was under way when OIG visited these
      five projects is not accurate. We visited only one (Del Bonita, MT) of the
      five projects. Additionally, we went to see Del Bonita in August 2010,
      whereas the forecasted start date for construction at Del Bonita was
      February 2011.

      We limited our recommendation to only five ports because when we
      briefed CBP officials on our findings and recommendations at a
      November 24, 2010, exit conference, CBP-provided schedules indicating
      that construction of the ports had not started at these five locations. The
      planned start dates were between February and May 2011. The point of
      our recommendation was for CBP to see if it could reduce costs by using
      one of its smaller standard designs or by eliminating certain features from
      the designs without compromising its operational requirements. CBP
      chose not to do so.

      We understand that this recommendation may have been overtaken by
      events. However, we have classified this recommendation as unresolved
      because there still appears to be an opportunity for CBP to analyze project

           Use of American Recovery and Reinvestment Act Funds by
  U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                   Page 15

                 designs, schedules, and activities and determine whether port designs may
                 be changed to reduce costs.

        Port Closures
                 CBP plans to build new ports at three locations and to repair a port that its
                 field offices4 recommended for closure owing to low traffic volume.
                 Recovery Act work has also been affected by Canada’s announcement that
                 it plans to close three ports across the border from three U.S. ports and by
                 CBP’s decision to initiate closure proceedings at Morses Line, VT.

                          Seattle Field Office Recommendation

                          In November 2009, the Seattle Field Office recommended that the
                          ports at Hannah, ND; Whitlash, MT; Pinecreek, MN; and
                          Ambrose, ND (a GSA-owned port that did not receive Recovery
                          Act funds) should be studied for closure; stating in part that the
                          ports have experienced—

                               a dramatic decrease in the volume of traffic over the past five
                               years. The reduction in the hours of operation at each POE
                               [port of entry] has been successful in an overall cost savings to
                               the agency. Hannah, Pinecreek and Whitlash have been
                               identified as candidates for new facilities under the ARRA
                               [American Recovery and Reinvestment Act], at an estimated
                               cost of $10 to $12 million per site. While the construction of
                               three new multimillion-dollar facilities is in the spirit of
                               economic stimulation, it is not in the best interest of CBP.
                               Given the continuing decline in traffic volumes at these
                               locations, a $30–36 million investment is hereby contended as
                               being fiscally irresponsible. A recommendation to review
                               these four ports for closure is argued to be both reasonable, and
                               supported by the President and Secretary Napolitano’s call for
                               resource efficiency.

                          The Seattle Field Office submitted its recommendation to the
                          Planning, Program Analysis and Evaluation Office of CBP’s
                          Office of Field Operations (OFO). The Planning, Program
                          Analysis and Evaluation Office agreed with the recommendation
                          and forwarded it to the Deputy Assistant Commissioner for the

4
  CBP has three field offices whose responsibilities include CBP-owned northern border ports: Seattle,
Boston, and Buffalo. Field offices issue guidance to their regional ports and ensure the dissemination and
implementation of core CBP guidelines. These offices also provide for mission support functions within
their regions, such as resource management, equal employment opportunity, labor, employee relations, and
other human resources management functions.

                     Use of American Recovery and Reinvestment Act Funds by
            U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                                 Page 16

            OFO. The Executive Director of the Planning, Program Analysis
            and Evaluation Office told us the then Deputy Assistant
            Commissioner requested a more systematic evaluation of all ports
            before making a determination on port closures. CBP provided no
            further information on the disposition of the recommendation.

            Table 5 presents estimated new port costs, average vehicles per
            day, and miles to closest port for Hannah, Pinecreek, and Whitlash.

              Table 5. Hannah, Whitlash, and Pinecreek Data
                                                     Average
                                     Estimated     Vehicles Per          Miles to
                      Port            Costs*        Day, 2009           Closest Port
              Hannah, ND              $7,411,170         5                  16
              Pinecreek, MN             7,346,532       15                  12
              Whitlash, MT              7,772,343        2                  55
                                     $22,530,045
              *
              See Appendix D.

            Boston Field Office Recommendation

            In June 2009, the Boston Field Office recommended that the port
            at Monticello, ME, be closed, stating that a workload analysis
            indicated that maintaining operations in Monticello “no longer
            makes fiscal or operational sense.” The report said that the port
            averages 5.13 vehicles per day. Closure of operations at
            Monticello would allow traffic to be diverted 9 miles to the port of
            Bridgewater or 13 miles to the port of Houlton. The population of
            Monticello is approximately 765.

            The Boston Field Office submitted its recommendation to the
            Planning, Program Analysis and Evaluation Office, which agreed
            with the recommendation and forwarded it to the Deputy Assistant
            Commissioner for the OFO. CBP provided no further information
            on the disposition of the Boston Field Office recommendation. In
            its April 2010 revised spending plan, CBP estimated costs for
            Monticello port repairs and alterations at $1.75 million.
            Subsequently, CBP advised that it identified Monticello for closure
            and will perform only emergent repairs at a cost of about
            $200,000.

            Canadian Closures

            On July 20, 2010, the Canada Border Services Agency announced
            its decision to close three Canadian ports directly across the border

         Use of American Recovery and Reinvestment Act Funds by
U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                 Page 17

                           from three U.S. ports: Big Beaver, Saskatchewan–Whitetail, MT;
                           Franklin Centre, Quebec–Churubusco, NY; and Jamieson’s Line,
                           Quebec–Jamieson Line, NY. Whitetail and Churubusco are CBP-
                           owned ports that are being modernized with Recovery Act funds.

                           Because of Canada’s actions, CBP has suspended construction on
                           both projects and has started its formal evaluation process for the
                           closure of Whitetail. CBP has not announced a determination on
                           the status of Churubusco. Table 6 shows new port costs, average
                           vehicles per day, and miles to closest port for Whitetail and
                           Churubusco.

                           Table 6. Whitetail and Churubusco Data
                                                                            Average           Miles to
                                                       Estimated          Vehicles Per        Closest
                                    Ports               Costs*             Day, 2009           Port
                                Whitetail, MT          $10,436,953             3                40
                               Churubusco, NY             8,744,412           34                16
                                                       $19,181,365

                           *
                               See Appendix D.

                           Morses Line, VT, Port Closure

                           On May 23, 2010, Senator Patrick Leahy requested that Secretary
                           Napolitano close the port at Morses Line, VT, because it is “not a
                           critical link in the chain of our nation’s security or commerce” and
                           because it “threatens a multi-generational operational dairy
                           farm . . . .” In a June 24, 2010, response to the senator, Secretary
                           Napolitano said that the department decided to begin the process of
                           closing Morses Line based on “internal analyses and significant
                           consultation with the local community and congressional
                           delegation.” CBP had obligated $4,919,000 for a new port at
                           Morses Line and reported expenditures of $171,149 when it
                           terminated the construction contract.

                           CBP Port Closure Rankings

                           OFO’s Planning, Program Analysis and Evaluation Office
                           performed an evaluation to identify ports for potential closure.
                           The evaluation considered volume of commercial and private
                           vehicles, consumption entries,5 operating hours, distance to nearest

5
 CBP defines consumption entry as a type of entry used when goods are imported for use in the United
States and are going directly into commerce of the United States without any time or use restrictions placed
on them.

                     Use of American Recovery and Reinvestment Act Funds by
            U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                                  Page 18

                            port, change in emergency medical services location, and size of
                            the community.6 The evaluation also weighted those factors,
                            giving the most weight (.50) to traffic volume. The evaluation
                            developed a comparative ranking of the 50 highest rated ports for
                            closure. Table 7 shows the 8 ports that ranked in the top 15 for
                            closure and are receiving Recovery Act funds.

                     Table 7. Eight Ports Ranked in the Top 15 for Closure, Average Daily
                     Traffic, Type of Recovery Act Project, and Estimated Project Costs
                                          Closure     Avg. Daily       Project      Estimated
                            Port          Ranking    Traffic (2009)     Type       Project Cost*
                     Monticello, ME          1              4        Repairs           $200,000
                     Easton, ME              2              8        Micro-B          7,949,511
                     Hannah, ND              4              5        Micro-B          7,411,170
                     Whitlash, MT            5              2        Micro-B          7,772,343
                     Whitetail, MT           6              3        Micro-A         10,436,953
                     Pine Creek, MN          7             15        Micro-B          7,346,532
                     Forest City, ME        12              7        Micro-B          7,860,924
                     Nighthawk, WA          15             28        Micro-B          9,825,186
                       Total                                                        $58,802,619

                     *The repair costs at Monticello were identified by CBP. See Appendix D for remaining
                     estimates.

                            The initial May 2009 spending plan targeted 16 northern border
                            ports for repairs and alterations, including the ports listed in Table
                            7, at costs ranging from $1,005,000 to $1,755,000 each. Repairs
                            and alterations included installing camera systems, fencing,
                            lighting, and emergency power; replacing water and sewer
                            systems; fixing roads; expanding or adding inspection booths and
                            canopies; and upgrading interior building features. For the seven
                            ports, total repair and alteration costs were estimated at
                            $10,615,000. CBP plans to build new ports instead of completing
                            repairs and alterations at Easton, Hannah, Forest City, Nighthawk,
                            Pinecreek, and Whitlash because the funds became available.
                            Building additional new ports as opposed to fixing older ports
                            gives CBP more state-of-the-art facilities and provides greater
                            economic stimulus. However, locations where ports could have



6
 These factors are similar to those delineated in Secretary Napolitano’s March 10, 2010, response to
questions from Senator Leahy concerning Morses Line. In answering the question “What criteria should
DHS consider when assessing whether to close a port?” the Secretary wrote, “factors would include the
current volume of traffic (both commercial and private), whether the traffic has been growing or
decreasing, the hours of operation, the distance to an alternative crossing point, the impact on community
access to emergency services, and the assessment of the condition of the port facility and its ability to fully
support the current mission.”

                      Use of American Recovery and Reinvestment Act Funds by
             U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                                   Page 19

                             been upgraded for about $10,615,000 will now receive new ports
                             for an estimated cost of $48,165,666.7

                             Conclusion

                             CBP is currently modernizing ports at locations it has identified as
                             having a high potential for closure. Specifically, 6 ports that are
                             ranked in the top 15 for closure in CBP’s internal assessment,
                             including 3 that field offices also recommended for closure, are
                             receiving Recovery Act funds. CBP has initiated closure
                             proceedings at one port (Whitetail, MT) because of Canada’s
                             decision to close its port on the opposite side of the border. CBP
                             has also identified Monticello, ME, for closure. The remaining six
                             ports (Easton, ME; Forest City, ME; Hannah, ND; Pinecreek, MN;
                             Nighthawk, WA; and Whitlash, MT) were targeted in CBP’s initial
                             spending plan for repairs and alterations, demonstrating that
                             upgrading ports is a viable alternative to building new ones. CBP
                             has reported construction start dates of March 2011 for Pinecreek,
                             MN; April 2011 for Hannah, ND; Nighthawk, WA; and Whitlash,
                             MT; and May 2011 for Easton, ME and Forest City, ME. Given
                             these conditions, CBP should reevaluate its strategy and determine
                             whether these ports should be repaired and altered, rebuilt, or
                             closed.

           Recommendation
                    Recommendation #2: Reevaluate the modernization approach for the
                    ports at Easton, ME; Forest City, ME; Hannah, ND; Pinecreek, MN;
                    Nighthawk, WA; and Whitlash, MT, and determine whether these ports
                    should be repaired, rebuilt, or closed.

           Management Comments and OIG Analysis
                    CBP nonconcurred: CBP said that its “decision to rebuild five LPOEs
                    complies fully with the intent of the American Recovery and
                    Reinvestment Act-upgrade CBP-owned facilities to meet the requirements
                    of the post-9/11 security environment and to put Americans back to
                    work.” CBP also stated its “repairs and alterations will not enable the six
                    sites to comply with operational requirements, and CBP has not received
                    guidance to close small ports.” In addition, CBP said that “construction
                    provides the only viable option for providing CBP personnel the facilities
                    necessary to perform their mission safely and efficiently.” CBP added that
                    the 30-Day Report “found no evidence that CBP’s modernization list or

7
    According to CBP, repair and alteration would not have fully satisfied operational needs.

                        Use of American Recovery and Reinvestment Act Funds by
               U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                                    Page 20

    its ‘backup’ list of LPOEs were based upon extraneous criteria or an
    inappropriate decision-making methodology.” Last, the response said that
    our recommendation “does not apply to Monticello because CBP has
    identified it for closure and will only make repairs necessary to ensure safe
    operations.”

    OIG Analysis: The main issue here is not whether these ports need
    upgrading, whether the replacement ports exceed operational
    requirements, or whether the projects stimulate the economy. The issue is
    whether CBP should invest millions of dollars building new ports where
    they may not be needed.

    CBP stated, “construction provides the only viable option for providing
    CBP personnel the facilities necessary to perform their mission safely and
    efficiently.” We understand that CBP determined that repairs and
    alterations were an inferior alternative after it determined there was
    enough money to replace facilities. We are not convinced, however, that
    that position is the most cost-efficient alternative, given that CBP officials
    have also rated these ports high for potential closure. The 30-Day Report
    recognized that closing ports could save construction costs but cautioned
    “considerations involved in closing a port are considerably more
    complicated than the straight dollar savings associated with forgone
    construction.” However, the report also said that “where port facilities are
    less than, for example, 20 miles apart, those adverse impacts may not
    outweigh the continuing cost to the taxpayers of maintaining a particular
    port facility;” and recommended that the department conduct studies to
    determine whether any ports should be closed.

    CBP had evaluated and ranked ports for potential closure and, while
    guidance may be lacking, CBP has starting closing ports. Specifically,
    CBP began the process of closing Morses Line based on “internal analyses
    and significant consultation with the local community and congressional
    delegation”; identified Monticello for closure; and started closure
    proceedings at Whitetail and suspended construction at Churubusco
    because Canada is closing its ports on the opposite side of the border.
    CBP has demonstrated, therefore, that lack of guidance has not prevented
    it from taking action to close ports.

    As with our first recommendation, we limited this recommendation to
    ports where it appeared there was still an opportunity to make changes.
    Since CBP professionals identified ports that could be closed and
    recommended closing certain ports in lieu of rebuilding them with
    Recovery Act funds, we believe that further review of whether and how
    these ports should be upgraded is merited. Consequently, we have



         Use of American Recovery and Reinvestment Act Funds by
U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                 Page 21

    classified this recommendation as unresolved and request that CBP
    reconsider an evaluation of these ports.

    We modified this recommendation to eliminate the port at Monticello,
    ME, based on clarification from CBP that it had identified Monticello for
    closure.




         Use of American Recovery and Reinvestment Act Funds by
U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                 Page 22


Appendix A
Purpose, Scope, and Methodology

                    We audited U.S. Customs and Border Protection’s use of Recovery
                    Act funds to support the modernization of land ports of entry
                    program. The objective of the audit was to determine whether the
                    CBP approach to altering and constructing the land ports of entry
                    on the northern border with Recovery Act funds was reasonable.

                    To meet our objective, we examined applicable laws, policies,
                    procedures, and CBP internal directives and data used for the land
                    ports of entry modernization program. We interviewed CBP
                    officials responsible for prioritizing the ports to be modernized, for
                    estimating construction costs, and for operating the ports. We also
                    interviewed officials responsible for the development of the GSA
                    2006 Land Ports of Entry Design Standard and contractor
                    personnel assisting CBP with the modernization program. We
                    evaluated CBP criteria and specific operating requirements to
                    support the designs used at all ports. We reviewed existing and
                    proposed technology capabilities used at all CBP-owned northern
                    ports. We visited and interviewed key officials at the CBP Seattle
                    OFO. Further, in August 2010 we visited 17 ports in Montana,
                    North Dakota, and Washington under the jurisdiction of the Seattle
                    OFO. We inspected the sites and interviewed 27 OFO officers
                    between July and December 2010.

                    We conducted this performance audit pursuant to the Inspector
                    General Act of 1978, as amended, and according to generally
                    accepted government auditing standards. Those standards require
                    that we plan and perform the audit to obtain sufficient, appropriate
                    evidence to provide a reasonable basis for our findings and
                    conclusions based upon our audit objectives. We believe that the
                    evidence obtained provides a reasonable basis for the findings and
                    conclusions based upon our audit objectives.




                 Use of American Recovery and Reinvestment Act Funds by
        U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                         Page 23


Appendix B
Management Comments to the Draft Report


                                                                                   1300 PeIUlsylvania Avenue NW
                                                                                   Washington, DC 20229



                                                                                   u.s. Customs and
                                                                                   Border Protection


                                                                          April 4, 2011



          MEMORANDUM FOR:                     CHARLES K. EDWARDS
                                              ACTING INSPECTOR GENERAL
                                              DEPARTMENT OF HOMELAND SECURITY

          FROM:                        -.Jt   Assistant Commissioner (}  it.../
                                   (                                  7-
                                              Office of Internal Affairs  0
                                              u.s. Customs and Border Protection
          SUBJECT:                            Response to the Office of Inspector General Draft Report
                                              Entitled, "Use of American Recovery and Reinvestment Act
                                              Funds by U.S. Customs and Border Protecti on for Construction
                                              of Land Ports of Entry"

          Thank you for the opportunity to review and comment on the draft report entitled, "Use of
          American Recovery and Reinvestment Act Funds by U.s. Customs and Border Protection for
          Construction of Land Ports of Entry." The DIG conducted its review to determine the efficacy
          of U.S. Customs and Border Protection's (CBP's) administration of the Recovery Act's funds
          for land ports of entry (LPOEs). Additionally, the DIG received a letter from Senator Byron L.
          Dorgan expressing concerns about the cost of the ports being built on the northern border. As
          a result, the OIG revised its objective to detennine whether the agency's approach to altering
          and constructing land ports of entry on the northern border with these funds was reasonable.

          U.S. Customs and Border Protection reviewed the DIG's draft report and CBP has no general
          comments. CB P has included technical and sensitivity comments for the DIG's considerat ion
          as an attachment to this memorandum .

          The draft report contains two recommendations. CBP has reviewed the recommendations and
          does not concur with the recommendations made by the DIG. CBP 's responses to the
          recommendations are outlined below:

           Recommendation I: Reevaluate the designs selected for the ports at Boundary. WA ;
           Bridgewater, ME; Cannons Corner. NY: Del Bonita, MT; and Hamlin. ME, and detennine
           whether the designs for these ports should be downsized.

           CBP Response: CBP non-concurs wi th the recommendation to reevaluate the designs selected
           for the fi ve ports. The designs renect CBP's operational needs while minimizing building
           size. A review team consisti ng of senior officials from the Department of Home land Security.
           the Transportation Security Administration, the Depanment of Slate, and the Executive Office




                 Use of American Recovery and Reinvestment Act Funds by
        U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                                        Page 24


Appendix B
Management Comments to the Draft Report



                                                             2
          of the President examined the design and termed it "appropriate to the staffing and other needs
          of these LPOE" and "a reasonable and prudent approach to allocati ng construction resources
          promptly:' Moreover, C BP offices continued to review the design once the first units began
          construction and used the lessons learned to develop a smaller design for the lowest-volume
          ports. Add iti onally. it should also be noted that these specific construction projects were
          already underway when t he 010 team visited the sites.

          Recommendation 2: Reevaluate the moderni zation approach for the ports at Easton. ME:
          Forest Ci ty, ME; I-Iannah. ND ~ Monticello, ME; Pinecreek, MN ; Nighthawk, WA; and
          Whitlash, MT; and detemline whether these ports should be repaired, rebuilt, or closed.

          CDP Response: CB P non-concurs with the recommendation to reevaluate the decision to
          rebuild the facilit ies at Easton. Forest C ity, Hannah, Pinecreek, N ighthawk and Whitlash. The
          decision to rebuild six LPOEs complies full y with the intent of the American Recovery and
          Reinvestment Act-upgrade CB P-owned facilities to meet the requirements of the post-9/ 11
          security envi ronment and to put Americans back to work. Moreover, repairs and alterations
          will not enab le the six sites to comply with operational requirements, and CBP has not rece ived
          guidance to close small ports. Construct ion provides the onl y viabl e option fo r providing cap
          personnel the facilities necessary to perfonn their mission safely and efficientl y. A review
          team consist ing of senior officials from the Department of I-Iomeland Securi ty. the
          Transportatio n Security Admini strat ion, the Department of State, and the Execut ive Office of
          the President confirm ed this decision, stating it "found no evidence that CSP's modernizat ion
          list or its " backup" li st of LPOEs were based upon extraneous criteria o r an inappropriate
          decision-making methodo logy." T he recommendation does not apply to Monticello because
          CBP has identifi ed it for closure and will make only those repairs necessary to ensure safe
          operatio ns.

          If you have any questions, please have a member of your staff contact Patty Quintana, Audit
          Liaison, Office of Internal Affairs at (202) 344- 1038.

          Attachment




                 Use of American Recovery and Reinvestment Act Funds by
        U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                                   Page 25


Appendix C
Average Costs of Small, Micro A, and Micro B Ports

Using our calculation of the average cost of ports, based on Customs and Border
Protection’s April 11, 2011, weekly report of project obligations, outlays, and related
activities (Appendix D), we computed the average cost of ports and the difference in the
average cost of a Small and Micro A port as follows:
                                PORT                       AVERAGE COST
                         Hamlin, ME                            $11,361,746
                         Wild Horse, MT                         11,525,888
                 S       Walhalla, ND                            9,201,281
                 M       Neche, ND                               9,905,420
                 A       Noonan, ND                             11,567,906
                         Boundary, WA                           14,873,158
                 L       Frontier, WA                           18,787,587
                 L         Total                                87,222,986
                         Average Cost                           12,460,427
                         Scobey, MT                               $10,056,780
                         Del Bonita, MT                             7,420,932
                         Bridgewater, ME                            8,828,394
                         Morgan, MT                                10,985,729
                         Whitetail, MT                             10,436,953
                 M       Antler, ND                                 9,637,089
                 I       Hansboro, ND                               9,623,505
                         Carbury, ND                                9,068,735
                 C       Westhope, ND                               8,931,631
                 R       Sherwood, ND                               8,702,158
                 O       Pittsburg, NH                              9,311,740
                         Cannon Corners, NY                         9,067,598
                         Churubusco, NY                             8,744,412
                  A      Morses Line, VT                              191,831
                         Pinnacle Road, VT                          9,169,257
                         Maida, ND                                  9,990,598
                            Total                                 140,167,342
                         Average Cost                               8,760,459

                 M       Easton, ME                                $7,949,511
                         Forest City, ME                            7,860,924
                 I       Pine Creek MN                              7,346,532
                 C       Whitlash, MT                               7,772,343
                 R       Sarles, ND                                 7,447,287
                         Hannah, ND                                 7,411,170
                 O       Nighthawk, WA                              9,825,186
                           Total                                   55,612,953
                  B      Average Cost                               7,944,708
                Difference between average cost of a
                Small ($12,460,427) and Micro A
                                                                   $3,699,968
                ($8,760,459) port



                   Use of American Recovery and Reinvestment Act Funds by
          U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                           Page 26


Appendix D
Estimated Cost of Port Projects as of April 11, 2011

         PORT                                                        PORT
       LOCATION                                    1               LOCATION                                   1
                              ESTIMATED COST                                           ESTIMATED COST
Hamlin, ME                                $11,361,746   Forest City, ME                          $7,860,924
Scobey, MT                                 10,056,780   Pine Creek MN                              7,346,532
Wild Horse, MT                             11,525,888   Whitlash, MT                               7,772,343
Del Bonita, MT                              7,420,932   Maida, ND                                  9,990,598
Morgan, MT                                 10,985,729   Sarles, ND                                 7,447,287
Whitetail, MT                              10,436,953   Hannah, ND                                 7,411,170
Walhalla, ND                                9,201,281   Nighthawk, WA                              9,825,186
Neche, ND                                   9,905,420
Noonan, ND                                 11,567,906    Subtotal Northern                     $283,003,281
Antler, ND                                  9,637,089
Hansboro, ND                                9,623,505   Southern Border
Carbury, ND                                 9,068,735   Antelope Wells, NM                        12,487,663
Westhope, ND                                8,931,631   Los Ebanos, TX                             8,510,828
Sherwood, ND                                8,702,158   Amistad Dam, TX                            9,930,841
Pittsburg, NH                               9,311,740
Cannons Corner, NY                          9,067,598    Subtotal Southern                      $30,929,332
Churubusco, NY                              8,744,412
Morses Line, VT                               191,831    Subtotal All Ports                    $313,932,613
Pinnacle Road, VT                           9,169,257
Boundary, WA                               14,873,158   Repairs/Alterations                       11,443,353
Frontier, WA                               18,787,587   GSA-funded Projects                       18,000,000
Easton, ME                                  7,949,511   Reporting System                          19,751,494
Bridgewater, ME                             8,828,394
                                                        Subtotal                               $363,127,460
Antelope Wells, NM
Forward Operating Base                                                                            3,000,000
                                                        Subtotal                              $366,127,460
                                                                                                         ₂
Expired Funding                                                                              $52,706,393
                                                        Total                                 $418,833,853

1
 CBP reported to the department that it had obligated $366,127,460 for land ports of entry as of April 11,
2011, including costs reprogrammed to GSA, earmarked for a program management and reporting system,
and reserved for contingencies. The report included information on the cost of construction for each port;
costs of repairs; costs of support activities performed for CBP by the Army Corps of Engineers, GSA, and
other contractors; and CBP program management costs. We estimated the costs of each port based on the
reported direct construction costs, plus costs we allocated to each project for its proportionate share of
allocable support activities. For example, we allocated contractor support for Recovery Act financial
reporting to each port modernization project. In contrast, we allocated the cost of contract modifications
for sustainability components for design/build projects constructed for CBP by GSA only to those GSA
modernization projects that had sustainability components incorporated into their construction plans.
2
 The April 11, 2011, CBP weekly status report also reported $52,706,393 of expired funding. Expired
funding is an unobligated amount in an expired account.




                     Use of American Recovery and Reinvestment Act Funds by
            U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                                 Page 27


Appendix E
Major Contributors to this Report

                     Roger LaRouche, Director
                     William Gillies, Audit Manager
                     Stephen Doran, Lead Auditor
                     Kendra Loper, Auditor




                 Use of American Recovery and Reinvestment Act Funds by
         U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                          Page 28


Appendix F
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Senior Counselor to the Secretary
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary for Management
                      Commissioner, CBP
                      Recovery Act Coordinator, DHS
                      DHS Component Liaison, CBP

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                 Use of American Recovery and Reinvestment Act Funds by
         U.S. Customs and Border Protection for Construction of Land Ports of Entry 


                                          Page 29


ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
